                                                                             Report No. DODIG-2014-084



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JUNE 20, 2014




                     Hotline Allegations Regarding
                     Defense Contract Management
                     Agency Contracting Officer
                     Actions on Several Business
                     System Audit Reports




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
              professional team, recognized as leaders in our field.




                                        Fraud, Waste, & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Hotline Allegations Regarding Defense Contract
                               Management Agency Contracting Officer Actions
                               on Several Business System Audit Reports


June 20, 2014

Objective                                        Recommendations
We conducted this review to determine the        The Director, DCMA, should:
validity of a DoD Hotline complaint alleging
                                                    •	 instruct the contracting officer to make                a   final
that a Defense Contract Management Agency
                                                       determination on the compensation system.
(DCMA) contracting officer did not take
timely or appropriate action on several             •	 Ensure the contracting officer implements withholdings
Defense Contract Audit Agency (DCAA) audit             for any disapproved business systems.
reports covering the business systems of a
large DoD contractor.                               •	 Develop a written corrective action plan for improving
                                                       DCMA quality assurance procedures to help ensure timely
                                                       final determinations and implementation of monetary
Finding                                                withholds for significant deficiencies.
We substantiated the DoD Hotline complaint.
                                                 In addition, we recommend that DCAA rescind its July 29, 2013,
Even though the Defense Federal Acquisition
                                                 memorandum addressing the estimating system and initiate
Regulation Supplement states that the
                                                 follow-up audits of the reported business system deficiencies.
contracting officer should make a final
determination within 30 days, the DCMA
contracting officer has taken up to 1,373 days   Management Comments and
as of March 25, 2014. In addition, the
contracting officer has not implemented
                                                 Our Response
withholdings for significant deficiencies.       Of the five recommendations for DCMA, the Director,
                                                 DCMA, agreed with two and partially agreed with three.
Also, the DCAA field audit office has not        The DCMA comments and planned corrective actions are fully
conducted timely follow-up audits of the         responsive to all five recommendations.
reported    business  system   deficiencies.
Finally, DCAA did not obtain sufficient          Of the three recommendations for DCAA, the Director,
evidence in support of its July 29, 2013,        DCAA, agreed in principle with one and did not agree with
memorandum stating that the contractor           two. The Director did not agree to rescind its July  29,  2013,
appeared to have implemented adequate            memorandum, which addressed the contractor’s estimating
controls for the remaining estimating            system. We request that the Director, DCAA, provide
system deficiencies.                             additional comments on Recommendations 2.a and 2.b.
                                                 See the Recommendations Table on the following page.
                                                 We request the additional comments by July 21 2014.




Visit us at www.dodig.mil


                                                                     DODIG-2014-084 (Project No. D2011-DIP0AI-0285.000) │ i
                   Recommendations Table
                                                                   Recommendations     Recommendations Not
                                       Management                  Requiring Comment    Requiring Comment
                    Director, Defense Contract Management Agency                       1.a, 1.b, 1.c, 1.d, and 1.e
                    Director, Defense Contract Audit Agency        2.a and 2.b         2.c

                   Please provide comments by July 21, 2014.




ii │ DODIG-2014-084 (Project No. D2011-DIP0AI-0285.000)
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                June 20, 2014

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT:	 Hotline Allegations Regarding Defense Contract Management Agency Contracting
          Officer Actions on Several Business System Audit Reports
          (Report No. DODIG-2014-084)

We are providing this report for your review and comment. We substantiated an allegation
that a contracting officer failed to make timely final determinations on four business
systems at a major DoD contractor facility.  The contracting officer also did not
implement monetary withholds for significant business system deficiencies, as Defense
Federal Acquisition Regulation Supplement 252.242-7005 clause requires.

DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We considered management comments on a draft of this report when preparing the final
report. The Director, Defense Contract Management Agency, provided comments that were
responsive to all recommendations. We request additional comments from the Director,
Defense Contract Audit Agency, for Recommendations 2.a, and 2.b. We should receive
the additional comments by July 21, 2014.

Please send a PDF file containing your comments to the e-mail address cited in the last
paragraph of this memorandum. Copies of your comments must have the actual signature of
the authorizing official for your organization.  We cannot accept the /Signed/ symbol in place
of the actual signature. If you arrange to send classified comments electronically, you must
send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to our staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), Carolyn.davis@dodig.mil.




                                                Randolph R. Stone
                                                Deputy Inspector General
                                                Policy and Oversight




                                                                                         DODIG-2014-084 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1

                  Finding. Failure to Make Timely Final Determinations
                  Regarding Contractor Business Systems_____________________________3
                  Allegation_________________________________________________________________________________________3
                  Untimely DCAA Follow-Up Audits______________________________________________________________9
                  DCAA Advice on the Estimating System______________________________________________________ 10
                  Recommendations, Management Comments, and Our Response__________________________ 10

                  Appendix
                  Scope and Methodology_______________________________________________________________________ 19

                  Management Comments
                  Director of Defense Contract Management Agency_________________________________________ 21
                  Director of Defense Contract Audit Agency__________________________________________________ 25

                  Acronyms and Abbreviations______________________________________________ 29




iv │ DODIG-2014-084
                                                                                       Introduction




Introduction
Objective
We conducted this review to determine the validity of a DoD Hotline complaint
alleging that a Defense Contract Management Agency (DCMA) contracting officer
did not take timely or appropriate action on several Defense Contract Audit
Agency (DCAA) audit reports covering the business systems of a large DoD contractor.

See the appendix for details of our scope and methodology.


Background
Defense Contract Audit Agency
DCAA performs DoD contract audits and provides accounting and financial
advisory services in connection with the negotiation, administration, and settlement
of DoD contracts and subcontracts. DCAA operates under the authority, direction,
and control of the Under Secretary of Defense (Comptroller).

DCAA maintains a Headquarters, a Field Detachment, and five regions: Central,
Eastern, Mid-Atlantic, Northeastern, and Western. Each region maintains multiple
field audit offices (FAOs).

The Agency performs several types of contract audits, such as audits of contractor
claimed incurred costs, forward pricing proposals, and business systems. DCAA
performs periodic audits of contractor business systems (including the accounting,
estimating, material management, and compensation systems) to test the existence
of adequate internal controls and the reliance the Government can place on
transactions processed by the business systems. DCAA advises the cognizant
contracting officer as to whether the systems contain significant deficiencies
that require contractor corrective action.


Defense Contract Management Agency
DCMA is a component of the DoD that works directly with DoD contractors to
ensure that DoD, Federal, and allied government supplies and services are
delivered on time and at projected cost, and meet all performance requirements.




                                                                                   DODIG-2014-084 │ 1
Introduction



                 DCMA contracting officers are responsible for several contract administrative
                 functions, such as approving or disapproving contractor business systems,
                 determining final indirect cost rates on cost-reimbursement contracts, and evaluating
                 contractor compliance with the Cost Accounting Standards. DCMA contracting
                 officers use the DCAA audit report and other expert advice to help them
                 determine whether to approve or disapprove contractor business systems.

                 This report addresses the actions that a DCMA corporate administrative contracting
                 officer (hereafter referred to as the contracting officer) took in response to
                 four business system audits issued by DCAA in 2010 and 2011. This contracting
                 officer was responsible for determining the adequacy of the business systems and
                 taking any other related actions required by the Defense Federal Acquisition
                 Regulation   Supplement.    The   contracting   officer   retired   in   January   2013.
                 DCMA assigned an acting contracting officer between January and March 2013, and
                 selected another permanent contracting officer in April 2013.




2 │ DODIG-2014-084
                                                                                             Finding




Finding
Failure to Make Timely Final Determinations Regarding
Contractor Business Systems
We substantiated the complainant’s allegation that the contracting officer failed
to make timely final determinations regarding the adequacy of four contractor
business systems. The failure to make a timely final determination increases
the Government’s risk that significant business system deficiencies will remain
uncorrected and the Government cannot rely on transactions processed by the
business systems.  Although the DCMA contracting officer should have made a
final determination within 30 days, the contracting officer has taken up to
1,373 days as of March 25, 2014. In addition, the contracting officer has not
implemented a payment withholding to protect the Government’s interests for
the significant deficiencies, as Defense Federal Acquisition Regulation Supplement
(DFARS) clause 252.242-7005 requires. In addition, we noted that DCAA has
not performed timely follow-up audits of significant reported deficiencies associated
with the contractor’s compensation, billing, accounting, and estimating systems.



Allegation
The complainant alleged that the DCMA contracting officer failed to make timely
final determinations on the adequacy of four contractor business systems: the
accounting, billing, compensation, and estimating systems. The complainant stated
that DCAA issued audit reports to the contracting officer that identified
significant system deficiencies with each system. However, the contracting officer
did not take appropriate action to resolve the deficiencies.


Revised Business System Requirements
In recent years, reported inadequacies with contractor business systems have led to
the enactment of major changes to related DoD regulations. On September  21,  2009,
the Commission on Wartime Contracting reported that unreliable data produced
by contractor business systems cost the Government billions of dollars.
The Commission criticized DCAA and DCMA for not providing effective oversight
of contractor business systems. For example, the Commission found that DCMA
often approved business systems based on only a corrective action plan and rarely
reduced or suspended progress payments to protect the Government’s interests
for system deficiencies.



                                                                                    DODIG-2014-084 │ 3
Finding



                 Section 893 of the National Defense Authorization Act for FY 2011 required
                 that DoD develop a program for the improvement of contractor business systems
                 to ensure that such systems provide timely, reliable information. On May  18,  2011,
                 DoD published an interim rule, which added DFARS clause 252.242-7005,
                 “Contractor Business Systems” (hereafter referred to as the business systems
                 clause), and amended other related sections of the DFARS. The business systems
                 clause serves, in part, as an enforcement mechanism for use by contracting
                 officers, requiring them to withhold 5 percent of contractor payments on contracts
                 that contain the clause when they make a final determination that a significant
                 system deficiency exists. Prior to the interim rule, contracting officers could
                 exercise discretion on whether to withhold payments.

                 Under the interim rule, DoD also revised related DFARS Procedures, Guidance,
                 and Instructions (PGIs). For example, DFARS PGI 242.7502, “Contractor Accounting
                 Systems and Related Internal Controls,” states that the contracting officer should
                 issue a final determination within 30 days after receiving the contractor’s
                 response on reported deficiencies. If the final determination reflects that
                 significant deficiencies exist, it must also include a notification of withholding
                 payments for contracts which include the business systems clause.

                 With minor changes, the interim rule was adopted as a final rule on February 24, 2012.


                 DCAA Business System Audit Reports
                 As shown in Table 1, an FAO in the DCAA Western Region issued four reports in 2010
                 and 2011 on the business systems of the major DoD contractor.

                 Table 1: DCAA Business System Reports
                                 Business System
                                Report Description                                    Issue Date
                               Compensation System                                   May 18, 2010
                               Billing System                                  November 18, 2010
                               Accounting System                               November 24, 2010
                               Estimating System                                   February 15, 2011


                 Each of the reports addressed significant system deficiencies. For example, regarding
                 the estimating system, the FAO found that information from the contractor’s
                 management systems was not being appropriately and accurately integrated into
                 cost estimates used in forward pricing proposals. The FAO cited several examples
                 when   this    deficiency      resulted   in   cost   estimates     that   were       not   reliable,



4 │ DODIG-2014-084
                                                                                                            Finding



verifiable, supportable, or properly documented. The FAO recommended that the
contracting officer implement monetary withholds to protect the Government’s
interests until the deficiencies were corrected.


Actions Taken on DCAA Reports
After receiving the DCAA reports, the contracting officer requested that the
contractor provide a written response to the reported deficiencies.  In the contractor’s
responses, the contractor disagreed in principle with some of the reported findings,
but agreed to take several corrective actions. As DFARS  clause  252.242‑7005(f)
requires, the contractor eventually notified the contracting officer in writing that
it had completed the corrective actions for each system.  Table 2 shows the dates
associated with receipt of the contractor’s response, contractor notification on
completion of corrections, and contracting officer issuance of the final determination.

Table 2: Dates of Actions on Business Systems
                                                          Contractor
                                 Receipt of               Notification       Issuance of Final
    Business System         Contractor Response          of Corrections       Determination
 Compensation System           June 21, 2010        November 3, 2010              Not Issued
 Billing System                May 23, 2011              May 23, 2011        February 1, 2012
 Accounting System            February 3, 2011           July 20, 2011       October 4, 2011
 Estimating System             July 21, 2011         January 9, 2012          August 6, 2013


Within approximately 8 months after receiving the contractor notifications on the
billing and accounting systems, the contracting officer issued final determinations to
approve both systems.

Regarding the estimating system, the contracting officer took nearly 19 months
after receiving the January 9, 2012, contractor notification to approve the
system. Until July 29, 2013, DCAA had advised the contracting officer that
five  significant  deficiencies still remained despite the contractor notification.
However, on July  29,  2013, DCAA issued a memorandum informing the contracting
officer that the contractor appeared to have implemented adequate controls to
address the remaining deficiencies. The contracting officer approved the system
within days after receiving the DCAA memorandum.

Even    though       the   contracting   officer   has     also   proposed   to    approve       the
compensation system, the contracting officer has not yet received the necessary
authorization to do so by DCMA’s Board of Review Committee. DCMA procedures



                                                                                                   DODIG-2014-084 │ 5
Finding



                 require contracting officers to obtain Committee approval of a final determination
                 on a business system when the contracting officer proposes not to adopt auditor
                 recommendations. The Committee advised the contracting officer that additional
                 testing of the contractor’s corrective actions needs to take place before it could
                 authorize the proposed determination.

                 For all four systems, the contracting officer elected not to implement withholdings
                 at any time after receiving the DCAA audit reports. Except for the estimating
                 system, the contracting officer documented in the file that withholdings were not
                 implemented because the contractor had already corrected the DCAA-reported
                 deficiencies.  In support of not implementing withholdings for the estimating system,
                 the contracting officer wrote:

                                 …it would be difficult to support an argument that the
                                 remaining outstanding conditions constitute shortcomings in
                                 [the contractor’s] estimating system that materially affect the
                                 Government’s ability to rely upon information produced by the
                                 system that is needed for management purposes sufficient to
                                 support a system inadequacy finding and withholding of payments.
                                 (DoD contractor name omitted)


                 Failure to Make Timely Determinations and
                 Withhold Payments
                 The contracting officer did not make timely final determinations on the
                 contractor’s business systems. Table 3 depicts the number of days the contracting
                 officer has taken as of March 25, 2014, to make final determinations on the
                 four systems after receiving the contractor’s response to each audit report.

                 Table 3. Number of Days to Make the Final Determination on Business Systems
                                                                                            Elapsed Days
                                                                                         Between Receipt of
                                                                                         Response and Final
                                                                                          Determination (or
                                                  Receipt of        Issuance of Final     March 25, 2014, if
                        Business System      Contractor Response     Determination        no determination)
                                                                                                1,373
                     Compensation System        June 21, 2010          Not Issued       (no determination yet)
                     Billing System             May 23, 2011        February 3, 2012             256
                     Accounting System         February 3, 2011      October 4, 2011             243
                     Estimating System          July 21, 2011        August 6, 2013              747




6 │ DODIG-2014-084
                                                                                                   Finding



The elapsed days far exceed the related DFARS PGI for each system [for example,
DFARS PGI 242.7502(d)] which states that the contracting officer should make
a final determination within 30 days after receiving the contractor’s response.

We do not question the contracting officer’s ultimate final determination to
approve the accounting, billing, or estimating systems. However, the contracting
officer should not have waited several months while the contractor made
corrective actions in order to make the final determinations. In the case of the
estimating system, the contractor took 22 months after DCAA issued its report
to implement adequate corrective actions (from July 2011 to May 2013). In the
meantime, the Government was at risk for the significant deficiencies and it
could not rely on information produced by those systems. For all four systems,
particularly after the DFARS interim rule became effective on May 18, 2011, the
contracting officer needed to promptly make a determination that significant
deficiencies existed and implement withholdings on contracts containing the
business   systems   clause    in   order   to    protect   the   Government’s   interests.
Then, as directed in DFARS clause 252.242-7005(e)(2), the contracting officer
should have reduced the withholdings to reflect the contractor’s progress in
correcting the deficiencies. Finally, the contracting officer should have eliminated
the withholdings only after receiving sufficient evidence to conclude that the
deficiencies were corrected.

Regarding the estimating system, we disagree strongly with the contracting
officer’s statement that “…it would be difficult to support an argument that the
remaining outstanding conditions constitute shortcomings in [the contractor’s]
estimating system...” (contractor name omitted). The outstanding deficiencies
that DCAA had communicated to DCMA beginning in July 2011 would have
clearly constituted a significant deficiency as defined in DFARS 252.242-7005(b).
As a result of the estimating deficiencies, DoD contracting officials who conducted
substantial business with this contractor did not have the benefit of audited rates
and factors for several years when they attempted to negotiate a fair and
reasonable value on individual price proposals.

Because the contracting officer has yet to make a final determination on the
compensation system, the contracting officer must promptly do so in accordance
with the DFARS. If significant deficiencies remain, the final determination must
include a notice to withhold payments. In determining whether significant
deficiencies remain, the contracting officer should consult with the DCAA FAO and
carefully consider recent evidence it has provided on the status of the deficiencies.



                                                                                          DODIG-2014-084 │ 7
Finding



                 As previously stated, DCMA has been criticized in the past for not taking
                 appropriate action on contractor business systems. In September 2009, 8 months
                 before the contracting officer began receiving the DCAA reports, the Commission on
                 Wartime Contracting criticized DCMA for not implementing withholdings to protect
                 the Government’s interests. Even after issuance of the DFARS interim rule, some
                 DCMA contracting officers were not making timely final determinations or
                 withholding payments for system deficiencies.

                 In a December 14, 2012, “Notice of Concern,”1 we pointed out that another
                 DCMA contracting officer had inappropriately postponed the final determination
                 on estimating system deficiencies for 1 year and 5 months because the contracting
                 officer wanted to wait until DCAA completed its follow-up audit.  As in this case,
                 the contracting officer did not implement withholdings to protect the Government’s
                 interests while waiting for the follow-up. In response to the Notice of Concern,
                 the Director, Defense Contract Management Agency, stated that the Agency would
                 continue to monitor, train, and meet with employees in order to improve timeliness
                 and compliance with regulatory requirements. We request that DCMA provide us
                 with specific actions taken and planned to help ensure compliance with the
                 business systems clause.


                 The Business Systems Clause was Required
                 In accordance with the May 18, 2011, DFARS interim rule, contracting officers
                 are required to incorporate the business systems clause into all DoD contracts
                 subject to the Cost Accounting Standards.

                 The contracting officer documented in the file that the business systems clause
                 does not apply because none of the contractor’s contracts contain the clause.
                 However, we discovered several contracts that should include the business
                 systems clause because they were executed after May 18, 2011, and subject
                 to the Cost Accounting Standards.                         On June 25, 2013, we requested that DCMA
                 determine if these contracts actually contain the clause as required, but DCMA has
                 not yet notified us of its determination.

                 Although the DCMA contracting officer did not personally execute these contracts,
                 the DCMA contracting officer was responsible for administering them and
                 determining the adequacy of the contractor business systems. Therefore, if the


                 	1	
                       We issue a Notice of Concern to alert DoD management of significant findings that require immediate attention.
                       DoD management officials can then take proactive steps to mitigate the effects of the findings.




8 │ DODIG-2014-084
                                                                                                Finding



business systems clause was omitted in error, the DCMA contracting officer should
have instructed the contracting officials who executed the contracts to add
the clause. An omission of the business systems clause could compromise the
DCMA contracting officer’s ability to effectively oversee contractor business
systems and protect the Government’s interests for significant deficiencies.

In the December 14, 2012, Notice of Concern, we advised the Director, Defense
Contract Management Agency, of an instance at another DoD contractor facility
where several contracts did not include the business systems clause as required.
If the contracting officer in this case determines that business systems clause
was omitted in error, the contracting officer must immediately instruct the
appropriate contracting officials to modify the contracts in order to insert the clause.


Untimely DCAA Follow-Up Audits
The DCAA FAO has not completed any follow-up audits of the significant
deficiencies reported in the four business system reports.      The FAO only recently
initiated follow-up audits of the accounting and compensation systems and does
not anticipate starting audits of the billing and estimating systems until FY 2014.
Although DCAA provided the DCMA contracting officer with limited advice
on the contractor’s corrective action plans, such advice is not a substitute for
performing a comprehensive follow-up audit of previously reported deficiencies.
(Also see “DCAA Advice on the Estimating System” below which addresses our
concerns regarding a recent memorandum DCAA issued on estimating system
corrective actions.)

DCAA Contract Audit Manual 5-104f, “Audit Objectives,” states that the auditor should
place a high priority on conducting follow-up audits of previously reported business
system deficiencies. Yet, the FAO told us that the follow-up audits were delayed
in part because of other priority work and staffing constraints. DCAA needs to
timely report on the status of business system deficiencies it has previously
reported so that the contracting officer can take appropriate action based on the
contractor’s current progress in correcting the deficiencies. Accordingly, DCAA
should promptly initiate follow-up audits of the business system deficiencies.




                                                                                       DODIG-2014-084 │ 9
Finding



                 In a June 11, 2013, draft report for Project No. D2012-DIP0AI-0030.000, we
                 found that another DCAA FAO took an unreasonable amount of time to perform
                 a follow-up audit of significant business system deficiencies.  We recommended that
                 DCAA assess the timeliness of business system follow-up audits on an agency‑wide
                 basis and make appropriate improvements to its related quality assurance
                 procedures. Currently, we have no additional recommendations for this issue.


                 DCAA Advice on the Estimating System
                 In a July 29, 2013, memorandum to the contracting officer, the DCAA FAO stated,
                 “…it appears [the contractor] has implemented adequate controls to address the
                 remaining estimating deficiencies….” (contractor name omitted) After receiving
                 the memorandum, the contracting officer issued a final determination to
                 approve the contractor’s estimating system.

                 However, DCAA acknowledges that it did not perform sufficient testing of the
                 actual implementation of the corrective actions, procedures, or internal controls
                 to   determine   their   operational   effectiveness.   Therefore,   we   question   the
                 appropriateness of the DCAA advice. Generally Accepted Government Auditing
                 Standard 6.56 states, “Auditors must obtain sufficient, appropriate, evidence to
                 provide a reasonable basis for their findings and conclusions.” Because the DCAA
                 FAO did not perform sufficient testing in support of whether the contractor had
                 implemented adequate controls, the DCAA FAO should notify the contracting
                 officer that it is rescinding the July 29, 2013, memorandum. As previously stated,
                 DCAA should initiate a follow-up audit of the corrective actions and gather
                 sufficient evidence to determine conclusively if the actions have eliminated the
                 reported estimating system deficiencies. The contracting officer can re-assess
                 the approval determination, if necessary, once DCAA issues a follow-up report.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Director, Defense Contract Management Agency:

                         a.	 Instruct the contracting officer to promptly make a final determination
                            on the contractor’s compensation system.




10 │ DODIG-2014-084
                                                                                                Finding



Director, Defense Contract Management Agency Comments
The Director, DCMA partially agreed. The Director agreed that a contracting
officer should take timely and appropriate action in accordance with the
DFARS.    However, a contractor’s compensation system is not a business system
subject to approval or disapproval. Nevertheless, DCMA will ensure the assigned
contracting officer takes appropriate action on the reported compensation system
deficiencies, and documents a determination of the effect on the estimating and
accounting systems.


Our Response
Although the DCMA Director partially agreed, the comments are responsive
and no further comments are required for this recommendation. We recognize
that the compensation system is now considered a component of the contractor’s
accounting system.  At the time DCAA issued its report of compensation system
deficiencies, the DFARS had identified 10 business systems (including the
compensation system).  With the issuance of the DFARS clause on May 18, 2011,
the 10 business systems were consolidated into 6.  The compensation system is
now considered a component of the accounting system.  We agree the contracting
officer should review the current status of the reported compensation system
deficiencies as a component of the accounting system and make a final
determination based on the DFARS clause.

         b.	 Ensure that the contracting officer implements withholdings on
           contracts    that   contain   Defense    Federal    Acquisition   Regulation
           Supplement Clause 252.242‑7005, if any significant compensation
           system deficiencies remain.

Director, Defense Contract Management Agency Comments
The DCMA Director partially agreed. The Director, DCMA agrees that the
contracting officer should withhold payments for compensation system deficiencies
that are considered significant and result in the disapproval of the accounting
system. The Director clarified that the contracting officer would not withhold
payments unless it resulted in the disapproval of a business system.


Our Response
Although the Director, DCMA, partially agreed, the management comments are
responsive and no additional comments are needed for this recommendation.




                                                                                      DODIG-2014-084 │ 11
Finding



                         c.	 Develop a written corrective action plan for helping to ensure that
                            contracting officers:

                              (1)	 Make timely final determinations on business systems.

                              (2)	 Implement withholdings on contractor business systems in
                                    accordance with applicable sections of the Defense Federal
                                    Acquisition Regulation Supplement.

                 Director, Defense Contract Management Agency Comments
                 The Director, DCMA, agreed and has developed procedures to help ensure contracting
                 officers make timely final determinations on business systems and implement
                 withholdings for significant deficiencies.  DCMA is rewriting its instructions to clearly
                 articulate the requirements and expectations for making prompt determinations.
                 Also, DCMA is updating the instructions to align final determinations with audit
                 dispositions and to specify timeframes for accomplishing those actions. For systems
                 that are disapproved, the DCMA Contractor Business System Review Panel will
                 oversee contracting officer actions to help ensure they adhere to the expected
                 timelines. The panel will also ensure contracting officers implement monetary
                 withholds in accordance with the DFARS  clause  252.242‑7005 and agency policy.


                 Our Response
                 The management comments are responsive and no additional comments are required.

                         d.	 Provide a copy of the written corrective action plan requested in
                            Recommendation 1.c to the Assistant Inspector General for Audit Policy
                            and Oversight.

                 Director, Defense Contract Management Agency Comments
                 The Director, DCMA, agreed. The Director stated that DCMA’s proactive steps
                 discussed in the comments on Recommendation 1.c will demonstrate progress
                 toward contracting officers making timely final determinations on business systems
                 and implementing withholds in accordance with DFARS  clause  252.242‑7005.
                 Also, DCMA will provide copies of its relevant instructions and memoranda
                 that will address and reinforce its procedures for ensuring timely determinations.




12 │ DODIG-2014-084
                                                                                                           Finding



Our Response
The DCMA management comments are responsive and no additional comments
are required.

         e.	 Review all contracts issued on or after May 18, 2011, subject to the
           Cost Accounting Standards and:

                (1)	 Ensure that contracting officials included Defense Federal
                     Acquisition    Regulation      Supplement        Clause   252.242-7005(e.

                (2)	 Instruct contracting officials to insert the business systems
                     clause if it was omitted in error.

Director, Defense Contract Management Agency Comments
The Director, DCMA, partially agreed. The Director recognizes the agency’s
responsibility to review contracts delegated to it for administration and to
highlight instances when contracts do not contain appropriate clauses. DCMA
updated its instructions to require that contracting officers review all contracts
for the existence of the business system requirements. The updated instructions
also   require    DCMA     contracting   officers    to   issue   a     written    request    that
procurement contracting officers modify contracts for the business system clause.


Our Response
The DCMA management comments are responsive and no additional comments
are required.


Recommendation 2
We recommend that the Director, Defense Contract Audit Agency, instruct the
Regional Director, Western Region, to:

         a.	 Rescind the July 29, 2013, memorandum to the contracting officer
           stating     that   the   contractor      appeared      to    have      corrected   the
           remaining estimating deficiencies.

         b.	 Advise the contracting officer that the memorandum has been rescinded.




                                                                                                 DODIG-2014-084 │ 13
Finding



                 Director, Defense Contract Audit Agency Comments
                 The Director, DCAA, disagreed. According to the Director, the FAO does not
                 need to rescind the memorandum because the memorandum:

                       1.	   did not offer an audit opinion or state that DCAA performed an audit
                             in   accordance      with   generally    accepted     government     auditing
                             standards (GAGAS);

                       2.	   clearly stated that DCAA performed “limited follow-up procedures;”

                       3.	   conveyed that the auditor “did not perform sufficient testing of the
                             actual implementation of the corrective actions, procedures, or
                             internal controls to determine their operational effectiveness;” and

                       4.	   was requested by the contracting officer to help fulfill the duties
                             outlined in DFARS 252.242-7005(e)(2), which requires the contracting
                             officer to determine if “the contractor is effectively implementing” a
                             corrective action plan “in consultation with the auditor;”

                 The Director also commented that performing a follow-up audit would not have
                 been a prudent use of scarce DCAA resources because the contractor had just fully
                 implemented the corrective actions in May 2013 (when the contractor submitted
                 its forward pricing rate proposal).


                 Our Response
                 The Director, DCAA, comments are not responsive and we request additional
                 comments. We maintain that the FAO should rescind the July 29, 2013,
                 memorandum.  As explained below, we disagree with the rationale DCAA provided
                 in support of not rescinding the memorandum.

                       1.	   The July 29, 2013, memorandum contained the following DCAA opinion
                             (or “opinion-like” statement):




14 │ DODIG-2014-084
                                                                                  Finding



     …it appears [the contractor] has implemented adequate
     controls to address the remaining estimating deficiencies….”
     (contractor name omitted and emphasis added)

Throughout the memorandum the FAO also conveyed the opinion that the
various corrective actions were “adequate.” The opinions are inconsistent
and incompatible with the preceding sentence in the memorandum
which states:

     We did not perform sufficient testing of the actual
     implementation of the corrective actions, procedures, or
     internal controls to determine their operational effectiveness.
     (emphasis added)

Regardless of whether or not this was a GAGAS-covered engagement,
the DCAA FAO should have refrained from opining that the contractor
had implemented adequate controls if it had not performed sufficient
testing of the actual implementation. The memorandum also did not
comply with DCAA procedures in DCAA Memorandum  No.  12-PAS-012(R),
April 24, 2012, which states in part:

     A deficiency would be considered outstanding unless the
     contractor has corrected the deficiency and DCAA has
     performed a follow-up audit and found the corrective
     action effective.

The Director commented that the FAO was providing only an advisory
service (also referred to as a “nonaudit” service) using limited
procedures, not an audit in accordance with GAGAS. GASAS 2.12 states:

     When performing nonaudit services for an entity for which
     the audit organization performs a GAGAS audit, audit
     organizations should communicate with requestors and
     those charged with governance to clarify that the work
     performed does not constitute an audit conducted in
     accordance with GAGAS.

We found no evidence suggesting the FAO had clarified to the contracting
officer that the work performed did not constitute an audit. Neither
the July 29, 2013, memorandum nor the July 9, 2013, memorandum
acknowledging the contracting officer’s request contained such
a clarification.



                                                                        DODIG-2014-084 │ 15
Finding



                             The July 29, 2013, memorandum indicates that the DCAA FAO
                             performed       “limited     procedures”        which   FAO        and     the   contracting
                             officer   agreed     on.     Such   an    arrangement         is    consistent    with      an
                             agreed-upon procedure engagement described in GAGAS and the DCAA
                             Contract Audit Manual. For this type of engagement, the auditor should
                             not express an opinion or conclusion. The DCAA FAO did not comply
                             with DCAA Contract Audit Manual 2-101.2, because the memorandum
                             provided an opinion and positive assurance that the contractor had
                             implemented adequate controls. Instead, the memorandum should have
                             disclaimed an opinion on the adequacy of the controls in accordance
                             with the DCAA procedure.

                       2.	   While the memorandum clearly stated the auditor had performed
                             limited procedures (which did not include sufficient testing of the
                             actual implementation), the FAO did not limit its conclusions or opinions
                             to the stated procedures. Instead, the FAO provided a level of assurance
                             regarding    the     adequacy       of   the     implemented         controls    that      was
                             inconsistent with the level of testing described in the memorandum.

                       3.	   Although the July 29, 2013, memorandum conveyed that the auditor
                             did not “perform sufficient testing of the actual implementation…,”
                             the memorandum inappropriately reflected that the contractor had
                             implemented adequate controls.

                       4.	   We do not object to the DCAA FAO providing appropriate advice
                             through a memorandum to help the contracting officer determine the
                             status of the contractor’s corrective actions in accordance with
                             DFARS 252.242-7005(e)(2). Nonetheless, DCAA inappropriately advised
                             DCMA that the contractor had implemented adequate controls despite
                             not   testing      the     actual   implementation        of       those    controls.      The
                             inappropriate       advice    could      have    led    the    contracting       officer    to
                             prematurely approve the estimating system before confirming that
                             the corrective actions were implemented and operating effectively.

                 Therefore, the FAO should rescind the memorandum and advise the contracting
                 officer not to rely on it for taking any future contracting actions. The FAO should
                 initiate a follow-up audit because the contractor has asserted that the corrective
                 actions were fully implemented and the FAO can gather sufficient data to test the
                 effectiveness of the actions.




16 │ DODIG-2014-084
                                                                                                        Finding



         c.	 promptly initiate follow-up audits of the reported business system
            deficiencies to determine if the contractor has eliminated them.

Director, Defense Contract Audit Agency Comments
The Director, DCAA, agreed in principle that follow-up audits should be
promptly initiated after the contractor implements the corrective actions and
sufficient information exists to confirm that corrective actions are sufficient.
DCAA plans to schedule an audit in FY 2014. However, the Director disagreed
that it is unreasonable for the FAO to take 3 years to perform a follow-up audit
of significant business system deficiencies. The Director further states “the
contractor did not fully implement its corrective actions until May 2013.” Therefore,
the Director does not believe it would have been prudent to perform a follow-up
audit until the contractor completed the corrective actions.


Our Response
The management comments are responsive and no additional comments are
required. On March 20, 2014, the DCAA FAO advised that it plans to begin work
on three follow-up audits in April and one follow-up audit in June 2014.

However, the contractor had notified the Government that the corrective actions
for all systems were completed as of January 2012, yet the DCAA FAO does not
plan to compete the follow-up audits until 2015.  The following table shows the
actual dates of the contractor’s notification and the estimated dates for completing
each follow-up audit.

Table 4. Time Elapsed Between Notification of Contractors’ Corrective Actions and DCAA’s
Follow-Up Audit
                             Contractor                                    Time Between
                                                Estimated Completion
    Business System         Notification of                               Notification and
                                                  of Follow-up Audit
                             Corrections                               Estimated Completion
 Compensation System      November 3, 2010         June 30, 2015         4 years, 8 months
                                                     No Estimate             At least
     Billing System          May 23, 2011         (June 2014 start)      3 years, 1 month
   Accounting System         July 20, 2011         April 15, 2015        3 years, 9 months
   Estimating System        January 9, 2012        April 15, 2015        3 years, 3 months


The FAO currently has no estimate for completing the billing system follow-up audit,
but it plans to start the audit in June 2014.




                                                                                              DODIG-2014-084 │ 17
Finding



                 We reiterate that the FAO’s follow-up audits are untimely. The FAO should have
                 initiated follow-up audits shortly after the contractor notified the Government it
                 had completed the corrective actions and sufficient data existed to test their
                 effectiveness. If a follow-up audit discloses that the corrective actions are either
                 not fully implemented or ineffective, the follow-up audit report should reflect
                 the deficiencies as still outstanding. Conducting an untimely follow-up audit has
                 limited usefulness for a contracting officer, especially when the contracting
                 officer has already made a final determination on the reported deficiencies.

                 The FAO supervisor explained that, although three of the four follow-up audits
                 were started, he had to postpone them for “other priority work.” The
                 postponements are not consistent with Agency policy which indicates that
                 follow-up audits of significant business system deficiencies should be given high
                 priority.   Nevertheless, we are encouraged by the FAO’s recent decision to restart
                 the audits in April and June 2014.  We are also encouraged by DCAA’s recent
                 effort to begin assessing the timeliness of follow-up audits and identifying
                 opportunities for improving timeliness agency-wide.  We will monitor the FAO’s
                 progress in completing the follow-up audits, and DCAA’s effort to identify
                 improvement opportunities.




18 │ DODIG-2014-084
                                                                                        Appendix




Appendix
Scope and Methodology
We conducted this review in accordance with the Council of the Inspectors General
on Integrity and Efficiency “Quality Standards for Inspection and Evaluation.”
To determine the validity of the Hotline complaint addressed in this report, we:

        •	 interviewed appropriate personnel at DCMA and DCAA;

        •	 obtained and reviewed files and correspondence relating to the
           complaint; and

        •	 reviewed DCMA contracting official actions to determine if they
           complied with applicable procurement regulations, DoD Instructions,
           and agency procedures.

We placed the interviewees under oath and recorded the interviews. In addition, we
reviewed applicable regulations and agency procedures. We also reviewed written
communications and other agency documents.

We performed this review from October 11, 2011, through July 29, 2013.


Use of Computer-Processed Data
We did not rely on any computer-processed data as part of our review.


Prior Coverage
During the last 5 years, the DoD Inspector General has issued four reports on
Defense Hotline complaints concerning actions that DCMA took on DCAA
audit reports. Unrestricted DoD Inspector General reports can be accessed at
http://www.dodig.mil/pubs/index.cfm?office=Audit.

Report No. D-2011-6-006, “Hotline Allegation Regarding the Failure of Defense
Contract Management Agency Philadelphia to Settle an Audit of a Significant Cost
Accounting Change,” March 22, 2011

Report No. D-2010-6-002, “Report on Allegation of Unsatisfactory Conditions
Regarding Actions by the Defense Contract Management Agency Earned Value
Management Center,” July 28, 2010




                                                                                 DODIG-2014-084 │ 19
Appendix



                 Report No. D-2009-6-008, “Report on Hotline Complaint Regarding the Actions
                 by a Contracting Officer at the Defense Contract Management Agency East
                 Hartford Office,” August 31, 2009

                 Report No. D-2009-6-004, “Defense Contract Management Agency Actions on Audits
                 of Cost Accounting Standards Internal Control Systems at DOD Contractors Involved
                 in Iraq Reconstruction Activities,” April 8, 2009




20 │ DODIG-2014-084
                                             Management Comments




Management Comments
Director of Defense Contract Management Agency




                                                   DODIG-2014-084 │ 21
Management Comments



                 Director of Defense Contract Management
                 Agency (cont’d)




22 │ DODIG-2014-084
                                          Management Comments



Director of Defense Contract Management
Agency (cont’d)




                                                DODIG-2014-084 │ 23
Management Comments



                 Director of Defense Contract Management
                 Agency (cont’d)




24 │ DODIG-2014-084
                                            Management Comments



Director of Defense Contract Audit Agency




                                                  DODIG-2014-084 │ 25
Management Comments



                 Director of Defense Contract Audit Agency (cont’d)




26 │ DODIG-2014-084
                                                 Management Comments



Director of Defense Contract Audit Agency (cont’d)




                                                       DODIG-2014-084 │ 27
Management Comments



                 Director of Defense Contract Audit Agency (cont’d)




28 │ DODIG-2014-084
                                                           Acronyms and Abbreviations




Acronyms and Abbreviations
   CAM Contract Audit Manual
  DCAA Defense Contract Audit Agency
 DCMA Defense Contract Management Agency
 DFARS Defense Federal Acquisition Regulation Supplement
   FAO Field Audit Office
 GAGAS Generally Accepted Auditing Standards
    PGI Procedures, Guidance, and Instructions




                                                                      DODIG-2014-084 │ 29
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
